                                                                 NATIONAL SCIENCE FOUNDATION 

                                                                  OFFICE OF INSPECTOR GENERAL 

                                                                    OFFICE OF INVESTIGATIONS 


                                                          CLOSEOUT MEMORANDUM

       Case Number: 109050025                                                                                        Page 1 of 1



                                                                                      .
                The OIG initiated an investigation based on a referral from an NSF-funded educational
                institution) that an employee2 had been terminated due to theft.

                Our investigation substantiated that the employee used her position as an accounts payable clerk
                to fraudulently prepare and issue checks to herself and a friend totaling $16,764.29. The
                employee's fraud involved $1,723 in federal award funds, none from NSF. 3

                The District Attorney's Office, Sawyer County, State of Wisconsin, charged the former employee
                with felony and misdemeanor theft. The employee pled guilty to felony theft and no contest to
                five counts of misdemeanor theft. The court entered convictions for the misdemeanor counts and
                sentenced the employee to nine months confinement (stayed pending completion ofthree years
                probation) and ordered the employee to pay $21,764.29 restitution (including investigation costs)
                and to comply with the terms of her probation. The court withheld entry ofjudgment for the
                felony count pursuant to an agreement to dismiss the count in five years, pending successful
                completion of probation and payment of restitution.

                OIG recommended NSF debar the employee for three years, based on her criminal conviction..
                On July 16,2010, NSF debarred the employee for three years through July 15,2013.

                Attached are the Judgment of Criminal Conviction4 , our debarment recommendation,5 NSF's
                Notice of Proposed Debarment,6 and NSF's Debarment notice. 7

                This case is closed.




                1 Lac Courte Oreilles Ojibwe Community College. 

                2 Jennifer Johnson, former Accounts Payable Clerk, Lac Courte Oreilles Ojibwe Community College. 

 ,I
jl

                3 Initial reports indicated some of the checks were drawn from a restricted account using funds designated for an 

                NSF award. Subsequent investigation determined that the checks had in fact been drawn from an unrestricted 

                account unrelated to NSF funding. 

tl
'!              4 Tab 1 


II              5 Tab 2 

                6 Tab 3 

Ii              7 Tab 4 





      NSF OIG Form 2 (1 1/02)
                      S.JA T l2.0F WISCONSlf\i                            CIRCUIT COURT BRANCH 1                                    SAWYER COUNTY              For Official Use Only
                     State of Wisconsin               VS.   Jennifer L. Jor                   n                           Judgment of    COl'     Jion
                                                                                                                          Sentence Imposed & Stayed,
                                                                                                                          Probation Ordered      .

                    Date of Birth:                                                                                        Case No.: 2008CF000169
                                                                                                                                                                  s~wr~r    ClUr'ity    .
                                                                                                                                                               Clst'K Q Circuit Court
                                                                                                                                                               H~ywartl,   WI 54843

                         The defendant was found guilty ofthe following crime(s):
                                                                                                                                                 Date(s)       Trial    Date(s)
                    Ct. Description                                                Violation                        Plea           Severity     -Committed     To       Convicted
                 2.     Theft-Busines.s Setting <=$2500                            943.20(1 )(b)                    No Contest     Misd. A       03-20-2009             05-06-2Q09
                .3      Theft-Business Setting <=$2500                             943.20(1 )(b)                    No Contest     Misd.A        0.3-20-2009            05-06-2009 .
il
                 4      Theft-Business Setting <=$2500                             943 .20(1)(b)                    No Contest     Misd. A      03-20-2009              05-06~2009
I.'I

II               5      Theft-Business Setting <=$2500                             943.20(1 )(b)                    No Contest     Misd.A       03-20-2009              05-06-2009
                 6      Theft-Busil)ess Setting <=$2500                            943.20(1)(b)                     No Contest     Misd.A       03-20-2009              05~06-2009

                       IT lS ADJUDGED that the defendant is guilty as convicted and sentenced as follows:
                Ct. Sent. Date                 . Sentence                                         Length              Agency        pomments
                2 05-06-2009                    Probation, sent imposed

                3      05-06-2009               Probation, sent imposed                           3YR

                4     .05-06-2009              Probation, sent imposed                         3YR

                5     05-06-2009               Probation, sent imposed"                        3 YR



                      Sentence(s) Stayed 

                      Local jail                                                              9 MO 


                      LocaljaiJ                                                               9MO


                     Local jail                                                               9MO


       5· Local jail                                                                          9MO
       l
       I,
       6            Local jail                                                                9 MO
       )1
       .1



       I~           Sentence Concurrent With/Consecutive Information:
                        ct. Sentence                               Type                                 Concurrent with/Consecutive To Comments
                        3 Probation, sent                          Concurrent                           CT. #2
                            imposed
                        4 Probation, sent                         Concurrent                            CT. #2
                            imposed
        i              r::    C?"'C'h2tir:'~
                                               _ _••_.J.
                                                                   ..-. ,-',.,. ~ ',".
                                                                  ,-"""                  ~,             :-.-:-   .=..!0


        L
                       .;

                             . Imposed
            I

                       6      Probation, sent                     Concurrent                            CT. #2
  . ~ I A 1 !:~ Ur VVT::iL;UNci[N                     GFKGUU I GUUK i tsKANGfi li                        ::iAWYf::K (;UUN!       r            {-or umClaJuse unly
    State of Wisconsin                 VS.   Jennifer L. Jof         .. In                   Judgment of Co:             )tion
                                                                                            Sentence Imposed & Stayed, '

  !~ateof Birth: 	
                                                                                            Probation Ordered

                                                                                            Case No.: 2008CF000169
                                                                                                                                                                              .!




   I'
   I
   t."          f
   ,ondrtlOns ,0 Sentence or Probation
   I'                Obflgatlons:'       (Total amounts only)
                                                                                                                    Mandatory
                                                          Attorney           DJoint and Several                     VlctimlWit.           5%,Rest.             DNA Anal.
           Fine                     Court Costs               Fees                Restitutio!}          Other       Surcharge            Surcharge             Surcharge


   ,I
    I
         , 50.00

                 Conditions
                 Ct. Condition
                                   .     100.00 	


                                               Length
                                                                                   21,764.25


                                                            Agenoy/Program Begin Date
                                                                                                        40.00


                                                                                                Begin Time Comments
                                                                                                                    .
                                                                                                                         300.00

                                                                                                                                        .

        :11      2     Jail time              40DA          Sawyer County Jail 06~03-2009.      03:00 pm
        I,!     3      Jail time              40DA.         Sawyer County Jail 06~03-2009       03:00 pm
        i4             Jail time              40DA          Sawyer County Jail 06-03-2009       03.:00 pm'
        il 5                                  40 DA
         I[ 6
         Jail·time                                          Sawyer County Jail 06-03-2009       03:00pm
        bJail timE;!                          40DA          Sawyer County Jail 06-03-2009       03:00 pm
   . Ct.      Condition                                            Agenoy/Program . Comments
     2	       Restitution                                                             Restitution to be paid to LCO Community College.
              Costs
             Work release / Huber law
             Costs
           . Work release / Huber Jaw 

             Costs 

             Work release / Huber law 

            Costs 

            Work release / Huber law 

            Costs 

            Work release / Huber law 

  Conditions Concurrent With/Consecutive fnformation:
                     Ct. Condition                  Type                        Concurrent with/Consecutive To Comments
                     3 Jail time                    Concurrent                  CT.#2
                     4 Jail time                    Concurrent                  CT.#2
                     5 Jail time                    Concurrent                  CT.#2
                     6 Jail time                    Concurrent                  CT.#2

     want to §973.01(3g) and (3m) Wisconsin Statutes, the court determines. the forrowing: .
. ' 	JJfendant is 0 is not .0 eligible for the Cha:llenge Incarceration Program.       .
I )elendant is 0      is not 0 eligible for the Earned Release Program.
              Ii 	                                                                                  •




  'IS ADJUDGED that odays sentence credit are dU9.pursuantlo§ 973.155, Wisconsin Statutes

  . IS ORDERED that the Sheriff shall deliver thedefendant into the custody of the Department. .




   :CA;P), OS/20o.B Judgment of Conviction, DOC 20.. (OBI2o.o.7) 	                                              §§ 939.50, 939.51, 972.13, ({hapler 973, Wisconsin Statutes
                                v:
                     R'..~,R Vr:'" W";:,e,.,VN~nlNJ ~C[1it,;UH                                 U   t,;~,1't,P~ D [:l;~tU\\C;L11                                                                            For Official Use Only
                     State of Wisconsin vs. Jennifer L. Jc                                          In                                Judgment a,f Cc                            or/em
                                                                                                                                      Sentence Imposed & Stayed,
                                                                                                                                      Probation Ordered

                      Date of Birth:                                                                                                  Case No.: 2008CF000169




                                                                                                                                     BY THE COURT: ' 

                            Norman L. Yackel, Judge
                            Thomas E Van Roy, District Atlomey
                            Martin Jarvis, Defense Atlorney
                            Department of Corrections
                            County Sheriff



                                                                                                                                     May 6,2009
                                                                                                                                     Date




        I




.
    ,   ~I'
        ::



        I





                'I
              CR.212(CCAP), 06/2008 Judgment of Conviction, DOC 20, (0812007)                                                                                                                   §§ 939,50,939,51,972,13, Chapter 973, Wisconsin Statutes
               Ir                                         This forrn~h~1I n~f\t~M~"'~":.2A~II;~OA:'-!.'''~-::.::".:.:.''.=cL"::":-:':'''::o-C-=-'.'c:.;:--:::.;":.;c':....'",:,'~''':-.-:..:'·::,;;·":-.-Z---~-'-:"-~~":'-----~--l
               National Science Foundation • 4201 Wilson Boulevard • Arlington, Virginia 22230
                                           Office of the Inspector General


                                                . DEC 302009



I                 To: 	    Arden 1. Bement, Jr. 

                           Director ' 

                  ..    ~d!fI14A C ~
               Fro~A.lllson C, Lerner
i~                 . t 'e11 Inspector General
!I

             Subject:     'Recommendation for Debarment Action (DIG Case No. 109050025) 

j

     Attached is our recommendation for debarment of Jennifer Johnson, former AccOlmts Payable
     Clerk at Lac Courte Oreilles Ojibwa Community College for conviction of theft that resulted in a
     financial loss to the community college totaling $16,764.29. While there was no financial loss to
     NSF, Johnson's theft included $1,723 from federal award funds, and placed NSF award funds at .
     risk.

      We recommend that NSF debar Ms. Johnson for a period of three years. We believe this action
      will adequately protect NSF's interests. Our recommendation and supporting facts are in the·
     .attached report. Ms. Johnson was not provided with a copy of this report nor was she provided
      an opportunity to comment due to her criminal conviction.

     If you have any questions about the report or our recommendation, I would be happy to discuss
     them with you. My staff point of contact for this matter is James Evans at extension 7398.



     Attachment

     cc: 	   . Lav,rrence Rudolph, General Counsel 

               Joan Frye, Office of Director's Liaison to DIG 

    CONFIDENTIAL                                  CONFIDENTIAL




         National Science Foundation 

           Office of Inspector General 





                         Confidential 

                    Report of 1nvestiga.tion 

                   Case Number 109050025 

                     December 30, 2009 



I

                                            NSF OIG Form 22b (11/06)
                                                  Executive Summary


     Allegation: 	             On May 11,2009, Lac Court Oreilles Ojibwa Community College
                               (College) notified NSF-OIG that a former employee issued fraudulent
                               payments to herself from the College checking account. OIG initiated an
                               investigation because the College receives federal award funding, .
                               including an NSF award. I

     Subject: 	                Jennifer Johnson, College Accounts Payable Clerk, 2000 to 2008.

     OIG
     Investigation: 	          OIG substantiated that Johnson misappropriated $16,764.29: $11,121.13
                               from the College's restricted account2 and, $5,643.16 from the College's
                               unrestricted account. 3 Johnson used her position as an accounts payable
                               clerk to fraudulently prepare and issue checks to herself and a friend
                               totaling $16,764.29. Although NSF award funds were not involved,
                               Johnson's fraud involved $1,723 in federal award funds.


     Prosecution: 	            The District Attorney's Office, Sawyer County, State of Wisconsin,
                               prosecuted the criminal case against Johnson. Johnson was charged with a
                               felony theft, in violation of Wisconsin Statue 943.20(1)(b)& (3)(c) and
                               misdemeanor theft, in violation of Wisconsin Statue 943.20(1)(b) & (3)(a).
                               Johnson pled Guilty to the felony theft and No Contest to five counts of
                               misdemeanor theft. Johnson was ordered to pay $21,764.29 in restitution,
                               of which $16,764.29 was reimbursement of the amount stolen and $5,000
                               was reimbursement of the College's investigative costs. Johnson was also
                               ordered to comply with the terms of her probation.

     OIG
r
.1   Recommendation:           Based upon the facts described herein, OIG recommends that NSF debar
                               Johnson for a period of three years.




       The College receives award funding from various organizations, including the federal government. The College
     explained that its award funding is maintained in a restricted account. The College uses funds from the restricted
     account solely to finance awards.
     3 The College explained its unrestricted account maintains funds derived from student tuitions and other fees. The
     College uses funds from the unrestricted account primarily to pay for general services.


                                                              1
    I.      OIG INVESTIGATION

            A. Factual Background

On May 11,2009, Lac Courte Oreilles Ojibwa Community College (the College) reported to
NSF OIG that a former employee,4 (the Subject), fraudulently issued checks from the College
checking account. The Subject had served as an accounts payable clerk for approximately eight
years where she was responsible for issuing checks to legitimate vendors.

  In September 2008, the College was unable to reconcile its checking account. Upon further
  review, the College subsequently found checks paid to Johnson but not recorded in the
. accounting system. Suspecting fraud, the College hired a firmS to investigate the checks paid to
  Johnson. The firm found that the Subject prepared and issued 43 unauthorized checks from the
  college checking accountbetween March and October of2008. In 43 instances, the Subject
  withheld payments to legitimate vendors; instead, she issued fraudulent payments to herself and
  a friend. The Subject cashed the majority of the fraudulent checks.

In total, the Subject misappropriated $16,764.29, and the College incurred financial damages in
that amount. The Subject's fraud included the misappropriation of$1,723 in federal award
funds. Johnson's fraud did not involve NSF award funds.

The College suspended the Subject on October 16, 2008, and subsequently terminated her due to
her fraud. The College referred Johnson's fraud to the District Attorney's Office, Sawyer
County, Wisconsin.·


            B. OIG Review and Assessment

The OIG obtained official court documents from the Sawyer County Court. Court records show
that on May 6, 2009, a district attorney filed a criminal information charging the Subject with a
felony theft in a business setting of over $10,000, in violation of Wisconsin Statue 943.20(1)(b)
& (3)(c), and five counts of misdemeanor theft in a business setting of under $2,500, in violation
of Wisconsin Statues 943.20(l)(b)& (3)(a). The Information is attached as Tab 1.

On May 6,2009, the Subject pled No Contest to the five counts of misdemeanor theft. For the
misdemeanor convictions, Johnson was sentenced to nine months in a local jail (stayed); and to
three years probation. A copy of the Judgment of Conviction is attached as Tab 2. On May 6,
2009, Johnson also pled Guilty to one count felony theft in violation of Wisconsin Statue
943.20(1)(b) & (3)(c). Johnson was ordered to pay restitution to the College in the amount of
$21,764.29 ($16,764.29 for financial losses and $5,000 for cost of investigation), complete 100
hours of community service, and comply with the terms of her probation for the misdemeanor
theft conviction. A copy of the Deferred Judgment of Conviction Agreement signed by the
Sawyer County Circuit Judge is attached as Tab 3.


                                            the College.



                                                 2

II.     DEBARMENT

        A. Grounds for Debarment

NSF may debar a person for "Conviction ... for ... Commission of embezzlement, theft ... or
... Commission of any other offense indicating a lack of business integrity or business honesty
that seriously and directly affects [the person's] present responsibility ...." 6 The Subject pled
Quilty to violating Wisconsin Statute 943 .20( 1)(b)& (3)(c) for acts constituting felony theft over
$10,000. The subject also pled No Contest to misdemeanor theft in violation of Wisconsin
Statute 943.20(l)(b) & (3)(a) and her conduct indicates a lack of business integrity and honesty.

        B. Burden of Proof

In debarment actions, the burden ofproof lies with NSF to demonstrate by a preponderance of
the evidence that cause for debarment exists.7 "Ifthe proposed debarment is based upon a
conviction or civil judgment, the standard ofproof is met.,,8 Since this proposed debarment is·
based on the Subject's conviction for felony and misdemeanor theft violations, the burden of
proof is met.

        c.   Relevant Factors

The debarri:lent regulation lists 19 factors for the debarring official to consider.9 The following
factors are pertinent to this case:

                  1. Actual or Potential Harm or Impact lO

As a result of the Subject's theft, the College incurred a financial loss of $16,764.29. While
there was no direct loss to NSF, the Subject's theft of $16,764.29 from the College, including
$1,723 from federal award funds, placed NSF award funds at risk. More egregious cases with a
similar pattern have been successfully prosecuted under 18 USC 666.

                 .2. Frequency or Duration of Incidentsl l

      a
Over 7 month period in 2008, the Subject prepared 43 fraudulent checks paid to herself and a
friend that totaled $16,764.29.




62 C,F-.R. § 180.800(a}(3} & - (4) 

72 C.F.R. § 180.850(a} & -.855 

82 C.F.R. § 180.850(b) 

92 C:F.R. § 180.860 

10
   2 C.F.R. §180.860(a) 

11 2 C.F.R. § 180.860(b) 





                                                  3
                   3. Pattern of Wrongdoing12

On 43 occasions, the Subject fraudulently prepared checks to herself and a friend from the
College checking account during a 7 month period in 2008.

                   4. Role in Wrongdoing13

The Subject used her position as an accounts payable clerk to fraudulently issue checks to herself
and a friend instead oflegitimate College vendors.

                   5. Acceptance of Responsibilityl4

The Subject did not accept responsibility for her actions until the College detected that she
misappropriated funds.

                   6.   Rep aymentl s

As part of sentencing, the Court ordered the Subject to make restitution to the College in the
amount of $21,764.29.

                   7. Cooperation of the Subjectl6

The Subject pled toa felony theft violation. The Subject did not cooperate until the College
detected her fraud.

                   8. Position Held by Subjectl7

The Subject served as an account payables clerk and had fiduciary responsibilities to issue
checks associated with college funds and federal funds, including NSF award funds. The Subject
misused her position and issued 43 fraudulent ch.ecks from the College checking account and
made false charges in to federal awards in the amount of$1,723..

II. Recommendations .

Despite.the Subject's termination from the College and criminal conviction, she possesses skills
to be hired in a position of fiduciary responsibility associated with federal award funds. To
protect the interests of the public, NSF, .and the federal government, we recommend that NSF
debar the Subject for three years. .                                                  .




12 2C.F.R.    § 180.860(c)
13 2 C.F.R.   § 180.860(1)
142 C.F.R.    § 180.860(g)
15 2 C.F.R.   § 180.860(h)
16
   2 C.F.R.   § 180.860(h)
172 C.F.R.    § 180.860(k)


                                                   4
                                                                     () 


Attachments:

Tab 1          Subject's Criminal Information, dated May 6, 2009

Tab 2          Subject's Judgment of conviction, dated May 6, 2009

Tab 3          Subject's Deferred Judgment of Conviction Agreement, dated May 6, 2009




                                               5

                                    NATrONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




                                            APR iJ 02010

       OFFICE OF THE 

      DEPUTY DIRECTOR 





   CERTIFIED MAlL ...-RETURN RECEIPT REQUESTED

   Ms. J ennifer Johnson




          Re: Notice ofProposed Debarment


  Dear Ms. Johnson:

 In light of your misconduct, this letter serves as fonnalnotice that the National Science
 Foundation ("NSF") is proposing to debar you from directly or indirectly obtaining the benefits
 of Federal grants for three years~ During your period of debarment, you will be precluded from
 receiving Federal financial and non-financial assistance and benefits under non-procUrement
 Federcilprogramsand activitie~. In addition, you will beprobibited from receiving any Federal
 contracts or approved subcontracts under the Federal Acquisition Regulations ("FAR"). Lastly,
 during your debarment period, you will be barred from having supervisory responsibility, primarY
 management, substantive control over, or critical influence on, a grant, contract, o'r cooperative
 agreement with any agency of the Executive Branch of the Federal Government.


 Reason for Debarment

  Your debarment is based upon a referral from NSF's Office of Inspector General ("OIG").
_ NSF's record demonstrates that you pleaded guilty to one count of felony theft; You were also
  convicted of five additional counts· of misdemeanor ¢.eft.. You engaged in this misconduct during
. your tenure as an accoUnts payable c1erk·at Lac Courte Oreilles Ojibwa Community College. As
  a result of your misconduct, you were sentenced to three years probation. You were also ordered
  to pay restitution in the amount of$2l,764.29, and to complete 100 hours of community service.
Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

(b)    Conviction of or civil judgment for -­

       (1) Commission of fraud or a criminal offense in connection with obtaining, attempting
           to Qbtain, or performing a public or private agreement or transaction; or ...

       ***
       (3) Commission of embezzlement, theft, forgery, bribery, falsification or destruction of
           records, making false statements, tax evasion, receiving stolen property, making false
           claims, or obstruction ofjustice.


In any debarment action, the government must establish the cause for debarment by a .
preponderance of the evidence. 2 CFR 180.850. If, as in this case, the proposed debarment is
based upon a conviction or civil judgment, the standard of proof is met. Id. Therefore, your
conviction for theft supports a cause for debarment under 2 CFR 180.800(a)(1) and (3).


Length ofDebarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an .
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. Id.
Having considered the seriousness of your actions, as well as the relevant aggravating and
mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period of three
years.


Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision:'making. Under our regulations, you have 30 days after receipt oftms notice to submit,
in person, or in writing, or though a representative, information and argument in opposition to
this proposed debarment. 2 CFR 180.815, 180.820. Please note, however, that because your
debarment is based on a conviction, you will not have an opportunity to challenge the facts
underlying the conviction. 2 CFR 180.830(a). Comments submitted within the 30-day period
will receive full consideration and may lead to a revision of the recommended disposition. If NSF
does not receive a response to this notice within the 30-day period, this debarment will become
final.                                                       . .                                .
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia, 22230. For your infonnation, we are attaching a copy ofthe Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.




                                                   Sincerely,



                                                   Cora B. Marrett
                                                   Acting Deputy Director



Enclosur:es:
Nonprocurement Debarment Regulations
FAR Regulations
I


                                         NATIONALSCfENCE FOUNDATION
                                              4201 WILSON BOULEVARD
                                             ARLINGTON, VIRGINiA 22230




                                                  JUL 1 6 2010 


             OFFICE OF THE 

          . DEPUTY DIRECTOR 





      VIA CERTIFIED MAIL -         RETI.JR~    RECEIPTREQUESTED

      Jennifer J obnson .




              Re: Debarment .

      Dear Ms. Johnson:

      On April 30, 2010, the National Science Foundation ("NSF") sent you a Notice of Pro posed
      Debarment in which NSF. proposed to debar you:from directly or indirectly obtaining the benefits.
      of Federal grants for tbreeyears. The Notice sets forth in detail the circUmstances giving rise to
      NSF's decision to propose your debarment. Specifically, NSF indicated in the Notice that the
      proposed debarment is based upon your guilty plea to one count of felony theft, and your
      conviction on five additional counts of misdemeanor theft. In that Notice, NSF provided you
      with thirty days to respond to the proposed debaiment. .

     Over thirty days have elapsed and NSF has not received a response. Accordingly,'you are
     debarred until July 15, 2013. Debarment precludes you from receiving Federal financial and
     non-financial assistance arid benefits under non-procureinent Federal programs and activities .
     unless an agency head or authorized designee makes a determination to grant an exception in     I


     accordance with 2 CFR Section 180.135. Non-procurement transactions include grants, :
     cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan: guarantees,
     subsidies, insurance~ payments for specified use, and donation agreements.

      Inaddition, you are prohibited from receiving Federal contracts or approved subcontracts under
      the Federal Acquisition R<;:gulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
    · debarment. 2 CFR Section 180.170. DUring the debarment period, youmay not have
      supervisory responsibility, primary management, substantive control over, or critical influence
    · on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
    · Federal Government.                                         .
. I'




         If you have any questions regarding the foregoing, please contact Eric S. Gold, Assistant General.
         Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
       . Room 1265, Arlington, Virginia,. 22230.


                            J



                                                             Sinc~rely,



                                                             ~.a,ac~
                                                            Cora B. Marrett
                                                            Acting Deputy Director
